VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                       Inspection of 

                                                                    VA Regional Office 

                                                                    Newark, New Jersey 





                                                                                  August 28, 2013
                                                                                   13-01625-273
             ACRONYMS AND ABBREVIATIONS 


HVOC         Homeless Veterans Outreach Coordinator
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
STAR         Systematic Technical Accuracy Review
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov 

                  (Hotline Information: www.va.gov/oig/hotline 

                 Report Highlights: Inspection of VA
                 Regional Office Newark, NJ

Why We Did This Review                          measures, we could not fully assess the
                                                effectiveness of the VARO’s homeless
The Veterans Benefits Administration            veterans outreach efforts.
(VBA) has 56 VA Regional Offices
(VAROs) and 1 Veterans Service Center in        What We Recommend
Cheyenne, Wyoming, that process disability
claims and provide a range of services to       The VARO Director should implement a
veterans. We evaluated the Newark VARO          plan to ensure staff follow up to reduce
to see how well it accomplishes this mission.   temporary 100 percent disability evaluations
                                                as appropriate. The Director should ensure
What We Found                                   staff review for accuracy the 149 temporary
                                                100 percent disability evaluations we did not
Overall, VARO staff did not accurately          sample during our inspection. Management
process 21 of 46 disability claims reviewed.    should develop and implement a plan to
We sampled claims that we considered at         ensure second-signature review of traumatic
higher risk of processing errors, thus these    brain injury claims. Further, management
results do not represent the overall accuracy   should ensure staff conduct outreach to
of disability claims processing at this         homeless veterans in the VARO’s area of
VARO.          Claims processing lacked         jurisdiction as required.
consistent compliance with VBA procedures
and is resulting in paying inaccurate and       Agency Comments
unnecessary financial benefits.
                                                The     Director    concurred   with     our
Specifically, 17 of 30 temporary 100 percent    recommendations. Management’s planned
disability evaluations we reviewed were         actions are responsive and we will follow up
inaccurate.     Errors primarily occurred       as required.
because VARO staff did not take actions to
reduce these temporary evaluations as
appropriate. Additionally, 4 of 16 traumatic
brain injury claims were incorrectly
processed because management did not
ensure effective second-signature review of
these claims.
                                                           LINDA A. HALLIDAY
In general, VARO managers ensured                      Assistant Inspector General
Systematic Analyses of Operations were                  for Audits and Evaluations
complete and timely and staff addressed
Gulf War veterans’ entitlement to mental
health treatment as required. VARO staff
did not provide adequate outreach to
homeless veterans in the VARO’s area of
jurisdiction. Due to a lack of performance

                                                                                            i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
    I. 	      Disability Claims Processing ............................................................................................2
 
              Finding 1            Newark VARO Could Improve Disability Claims Processing 

                                   Accuracy.....................................................................................................2
 
                                   Recommendations ......................................................................................7
 
    II.       	Management Controls .......................................................................................................9 

    III.	     Eligibility Determinations...............................................................................................10 

    IV.       Public Contact .................................................................................................................11 

              Finding 2            Oversight of Homeless Outreach Program Needs Improvement .............11 

                                   Recommendation......................................................................................12
 
Appendix A                         VARO Profile, Scope, and Methodology of Inspection ...........................13
 
Appendix B                         Inspection Summary .................................................................................15 

Appendix C                         VARO Director’s Comments ...................................................................16 

Appendix D                         OIG Contact and Staff Acknowledgments ...............................................19 

Appendix E                         Report Distribution...................................................................................20 





                                                                                                                                                 ii
                                                                Inspection of the VARO Newark, NJ



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In March and April 2013, we inspected the Newark VARO and focused on
Inspection          the following four protocols—disability claims processing, management
                    controls, eligibility determinations, and public contact. Within these
                    protocols, we examined two high-risk claims processing areas of temporary
                    100 percent disability evaluations and traumatic brain injury (TBI) claims.
                    In addition, we examined three other operational activities—Systematic
                    Analyses of Operations (SAOs), Gulf War veterans’ entitlement to mental
                    health treatment, and the homeless veterans outreach program.

                    We reviewed 30 (17 percent) of 179 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We examined 16 of 20 TBI-related disability
                    claims that VARO staff completed from October through December 2012.
                    Three of the 20 claims files were unavailable for review due to the transition
                    to automated claims processing. A fourth file had been lost.

Other               	 Appendix A includes details on the VARO and the scope of our
Information            inspection.
                     Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                     Appendix C provides the VARO Director’s comments on this report.



VA Office of Inspector General                                                                  1
                                                                       Inspection of the VARO Newark, NJ



                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing

Claims              The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy
                    these claims processing issues and assessed their impact on veterans’
                    benefits.

Finding 1 	         Newark VARO Could Improve Disability Claims Processing
                    Accuracy

                    The Newark VARO did not consistently process temporary 100 percent
                    disability evaluations and TBI cases accurately. Overall, VARO staff
                    incorrectly processed 21 of the total 46 disability claims we sampled. We
                    identified 86 improper monthly payments to 11 veterans totaling
                    $115,255 from January 2010 until April 2013.

                    We sampled claims related to specific conditions we considered at higher
                    risk of processing errors. As a result, the errors identified do not represent
                    the universe of disability claims processed at this VARO. As reported by
                    VBA’s Systematic Technical Accuracy Review (STAR) program as of
                    February 2013, the overall accuracy of the VARO’s compensation
                    rating-related decisions was 84.1 percent—5.9 percentage points below
                    VBA’s FY 2013 target of 90 percent. The STAR program information was
                    not reviewed during the scope of this inspection.

                    The following table reflects the errors affecting, and those with the potential
                    to affect, veterans’ benefits processed at the Newark VARO.
Table 1
                                 Newark VARO Disability Claims Processing Accuracy
                                                                      Claims Inaccurately Processed
                                                 Number
                           Type of Claim        of Claims     Affecting       Potential To
                                                                                                  Total
                                                Reviewed      Veterans’      Affect Veterans’
                                                                                                  Errors
                                                               Benefits          Benefits
                      Temporary 100 Percent
                                                   30            10                  7                17
                      Disability Evaluations
                      Traumatic Brain Injury
                                                   16             1                  3                 4
                      Claims
                      Total                        46            11                 10                21
                      Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at
                      least 18 months or longer and TBI disability claims completed in the first quarter
                      FY 2013



VA Office of Inspector General                                                                             2
                                                                 Inspection of the VARO Newark, NJ


Temporary           VARO staff incorrectly processed 17 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability          disability evaluation for a service-connected disability following a veteran’s
Evaluations
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    Without effective management of these temporary ratings, VBA is at risk of
                    paying inaccurate financial benefits. Available medical evidence showed
                    10 of the 17 processing errors affected veterans’ benefits and resulted in
                    84 improper monthly payments to 10 veterans totaling $106,297 from as
                    early as January 2010 until April 2013. Details on the most significant
                    overpayment and underpayment follow.

                    	 A Rating Veterans Service Representative (RVSR) did not take final
                       action to reduce benefits after notifying the veteran of the intent to do so.
                       As a result, VA continued processing monthly benefits and ultimately
                       overpaid the veteran a total of $24,333 over a period of 11 months.
                    	 An RVSR did not establish a veteran’s entitlement to special monthly
                       compensation based on multiple disabilities and loss of use of a creative
                       organ, as required. As a result, VA underpaid the veteran a total of
                       $16,280 over a period of 3 years and 3 months.

                    The ten errors affecting benefits occurred when staff did not take final action
                    to reduce benefits after notifying veterans of the intent to do so. VARO
                    managers did not have oversight in place to ensure staff reduced
                    compensation payments to veterans in a timely manner after advising them
                    of the intent to do so. Management also did not ensure staff complied with a
                    local policy requiring them to closely monitor and take appropriate follow-up
                    actions on benefits reduction cases. Managers stated staff did not complete
                    actions to reduce benefits because the VARO diverted efforts to support
                    other national production goals. On average, 4 months elapsed from the time
                    staff should have reduced benefits until April 2013. The delays ranged from
                    28 days to 1 year.

                    For the remaining seven errors, we concluded these errors have the potential
                    to affect veterans’ benefits. In most cases, we could not determine whether
                    the evaluations would have continued because the veterans’ claims folders
                    did not contain the medical examination reports needed to evaluate each
                    case. Specifically:

                    	 Four errors occurred when staff did not establish suspense diaries in the
                       electronic record as required. A suspense diary is a processing command
                       that establishes a date when VSC staff must schedule a medical
                       reexamination. As a suspense diary matures, the electronic system


VA Office of Inspector General                                                                    3
                                                                 Inspection of the VARO Newark, NJ


                        generates a reminder notification for VSC staff to schedule the medical
                        reexamination. Because staff did not enter the suspense diaries in the
                        electronic record, automated notifications to alert staff to schedule
                        medical reexaminations did not generate. Reexaminations are needed to
                        support decisions on whether to continue temporary 100 percent
                        disability evaluations.
                    	 One error occurred when an RVSR did not establish entitlement to
                       special monthly compensation for a medical condition related to prostate
                       cancer.
                    	 One error occurred when an RVSR prematurely proposed reducing a
                       veteran’s benefits before the mandated treatment period had expired.
                    	 One error occurred when staff did not schedule a required medical
                       examination for a veteran’s prostate cancer after receiving a reminder
                       notification to do so.

Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response         Disability Evaluations (Report No. 09-03359-71, dated January 24, 2011),
to Prior Audit      the then-Acting Under Secretary for Benefits agreed to review all temporary
Report
                    100 percent disability evaluations and ensure each had a future examination
                    date entered in the electronic record. Our report stated, “If VBA does not
                    take timely corrective action, they will overpay veterans a projected
                    $1.1 billion over the next 5 years.” The then-Acting Under Secretary for
                    Benefits stated in response to our audit report that the target completion date
                    for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011,
                    then to June 30, 2012, and then again to December 31, 2012. Based on the
                    numerous delays and our continued findings, we are concerned about the
                    lack of urgency in completing the national review, which is critical to
                    minimize the financial risk of making inaccurate benefits payments.

                    During this 2013 inspection, we followed up on VBA’s national review of its
                    temporary 100 percent disability evaluation processing. We sampled
                    40 cases from the lists of cases needing corrective actions that VBA provided
                    to the Newark VARO for review. We determined VARO staff accurately
                    reported taking actions, such as inputting suspense diaries or scheduling
                    reexaminations, on all 40 cases.

                    However, in comparing VBA’s national review lists with our data on
                    temporary 100 percent disability evaluations, we found seven cases
                    involving prostate cancer or non-Hodgkin’s lymphoma that VBA had not
                    identified. We could not determine why VBA did not identify these cases;
                    however, we will monitor this situation as VBA works to complete its


VA Office of Inspector General                                                                   4
                                                                Inspection of the VARO Newark, NJ


                    national review. This review is important because 17 of the 30 temporary
                    evaluations we reviewed contained processing errors. We provided VARO
                    officials with 149 claims remaining from our inspection universe to assist
                    with its review of these temporary evaluations.

Follow-Up to        Our prior report, Inspection of the VA Regional Office, Newark, NJ (Report
Prior VA OIG        No. 10-03055-259, dated September 29, 2010), stated 24 of the total
Inspection          30 temporary 100 percent disability evaluations we reviewed had processing
                    errors. The most frequent processing error occurred when staff did not
                    establish suspense diaries in the electronic record for confirmed and
                    continued evaluations; thereby removing the possibility that staff would
                    receive reminder notifications to schedule medical reexaminations. In
                    response to our recommendations, the Director agreed to review the
                    129 temporary 100 percent disability evaluations remaining from our
                    inspection universe. The Director also agreed to ensure staff enter suspense
                    diaries in the electronic record by conducting random reviews of temporary
                    100 percent disability evaluations. The OIG closed this recommendation in
                    November 2010.

                    During our April 2013 inspection, we did not identify any errors where staff
                    did not enter suspense diaries in the electronic record for confirmed and
                    continued temporary 100 percent disability evaluations. We concluded the
                    corrective actions taken by VARO staff adequately addressed
                    recommendations made in our 2010 inspection. As such, we made no further
                    recommendation for improvement in this area.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report
                    No. 11-00510-167, dated May 18, 2011), VBA agreed to develop and
                    implement a strategy for ensuring the accuracy of TBI claims decisions. In
                    June 2011, the Under Secretary for Benefits provided guidance to VARO
                    Directors to implement a policy requiring a second signature on each TBI
                    case an RVSR evaluates until the RVSR demonstrates 90 percent accuracy in
                    TBI claims processing. The policy indicates second-signature reviewers
                    come from the same pool of staff as those used to conduct local station
                    quality reviews. In July 2012 as part of its organizational transformation,
                    VARO management additionally assigned responsibility for TBI disability
                    claims processing to the Special Operations team. In this model, experienced
                    RVSRs are assigned to rate complex cases such as TBI claims.



VA Office of Inspector General                                                                  5
                                                                 Inspection of the VARO Newark, NJ


                    VARO staff incorrectly processed 4 of 16 TBI claims completed from
                    October through December 2012. One of the processing errors affected the
                    veteran’s benefits—the remaining three errors had the potential to affect
                    benefits. Descriptions of the four cases with errors follow.

                    	 An RVSR did not assign the correct level of special monthly
                       compensation for a seriously disabled veteran with a traumatic brain
                       injury. In this case, the level of special monthly compensation was not
                       consistent with the type of aid and attendance needed by this veteran to
                       assist with the activities of daily living. As such, the veteran was
                       underpaid approximately $8,958 over a period of 2 months.
                    	 An RVSR used an insufficient medical examination report to establish
                       compensation benefits for migraine headaches associated with an
                       in-service TBI. VBA policy requires VA examiners to use a specific
                       template on the initial examination report to fully assess and identify all
                       disabilities related to a TBI. In this case, the veteran did not receive the
                       comprehensive examination, but instead received an examination to
                       assess headaches. Without the medical evidence expected from a
                       comprehensive examination, neither VARO staff nor we can ascertain all
                       of the residual disabilities of a TBI.
                    	 An RVSR did not establish compensation benefits for migraine
                       headaches associated with a veteran’s TBI despite medical evidence
                       obtained from a VA examination that linked the migraines to the
                       in-service TBI.
                    	 An RVSR established compensation benefits for a TBI even though the
                       medical examination reports did not provide a diagnosis to support
                       granting the benefits.

                    Generally, errors in processing TBI claims occurred because VARO
                    managers did not have oversight procedures in place to ensure staff complied
                    with VBA’s second-signature review policy or the local policy requiring TBI
                    claims to be processed by the Special Operations team. Of the 16 TBI claims
                    completed from October through December 2012, 15 did not undergo
                    second-signature review. Additionally, the specialized team did not process
                    5 of the 16 TBI claims we reviewed. Had oversight measures been in place,
                    second-signature reviewers may have realized staff misinterpreted VBA
                    policy when processing three of the four TBI errors we identified and taken
                    actions to correct the errors.

                    RVSRs we interviewed stated they were unaware of VBA’s second-signature
                    review requirements for TBI disability claims, but were aware of the local
                    policy requiring the Special Operations team to process these claims. Some
                    RVSRs stated they were unaware of the local policy directing the Special
                    Operations team to process TBI claims. Other RVSRs were aware of the
                    local policy, but simply chose not to forward the claims as required.

VA Office of Inspector General                                                                   6
                                                                Inspection of the VARO Newark, NJ


                    VARO managers stated, and we confirmed, that staff did receive information
                    on VBA’s second-signature review policy. Managers agreed oversight
                    procedures were lacking to ensure TBI claims received second-signature
                    review for accuracy and were processed by the Special Operations team.
                    Because of errors in processing TBI claims, veterans may not have received
                    accurate benefits.

Follow-Up to        Our previous report, Inspection of the VA Regional Office, Newark, NJ
Prior VA OIG        (Report No. 10-03055-259, dated September 29, 2010), stated 11 of the
Inspection
                    30 TBI claims reviewed had processing TBI errors. The majority of the
                    errors occurred because RVSRs did not interpret VBA policy correctly and
                    failed to assign separate non-compensable evaluations for TBI-related
                    disabilities. In response to our recommendation, the VARO Director agreed
                    to ensure staff received refresher training on evaluating TBI disability
                    claims. The OIG closed this recommendation in November 2010.

                    However, during our 2013 inspection, three of the four errors we identified
                    also involved staff misinterpreting VBA policy when processing TBI claims.
                    Because the errors identified in our 2010 and 2013 inspections were similar,
                    we determined improvement in this area was still needed.

                    Recommendations

                    1.	 We recommend the Newark VA Regional Office Director develop and
                        implement a plan to ensure claims processing staff take timely actions to
                        finalize reductions in benefits.
                    2.	 We recommend the Newark VA Regional Office Director develop and
                        implement a plan to review the 149 temporary 100 percent disability
                        evaluations remaining from our inspection universe and take appropriate
                        action.
                    3.	 We recommend the Newark VA Regional Office Director develop and
                        implement a plan to ensure effective second-signature reviews of
                        traumatic brain injury claims decisions.

Management          The VARO Director generally concurred with our recommendations. The
Comments            Director assigned responsibility for oversight and case management to
                    improve timeliness in cases involving benefit reduction actions to VARO
                    managers.

                    The Director agreed to review the 149 temporary 100 percent disability
                    evaluations remaining from the OIGs inspection universe. However, the
                    Director indicated the majority of the 149 cases on the OIG’s list were
                    duplicates of cases on the list of 926 provided by the Eastern Area Office in
                    early 2013. The Director expects to have the remaining cases from the
                    Eastern Area Office and the OIG reviewed by the end of calendar year 2013.


VA Office of Inspector General                                                                 7
                                                             Inspection of the VARO Newark, NJ


                    The VSC manager reminded all staff about second-signature requirements
                    for TBI claims. Management will randomly sample five completed TBI
                    claims on a monthly basis to ensure compliance with the second-signature
                    policy.

OIG Response	       The Director’s comments       and   actions   are   responsive    to   the
                    recommendations.




VA Office of Inspector General                                                              8
                                                              Inspection of the VARO Newark, NJ


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of SAOs. We also considered
Operations
                    whether VSC staff used adequate data to support analyses and
                    recommendations identified within each SAO. An SAO is a formal analysis
                    of an organizational element or operational function. SAOs provide an
                    organized means of reviewing VSC operations to identify existing or
                    potential problems and propose corrective actions. VARO management
                    must publish annual SAO schedules designating the staff required to
                    complete the SAOs by specific dates. The VSC Manager is responsible for
                    ongoing analysis of VSC operations, including completing 11 mandated
                    SAOs annually.

                    Generally, VARO management ensured SAOs were submitted by the
                    required due date, contained thorough analyses, used appropriate data, and
                    made recommendations for improvements where appropriate. Of the
                    11 mandated SAOs, staff delayed submitting the Quality of Development
                    Activity SAO by 86 days. Because management ensured most SAOs were
                    submitted by the required due date, we made no recommendation for
                    improvement in this area.

Follow-Up to        Our previous report, Inspection of the VA Regional Office, Newark, NJ
VA OIG              (Report No. 10-03055-259, dated September 29, 2010), stated five of the
Inspection
                    mandatory SAOs were submitted untimely, incomplete, or both. In response
                    to our recommendations, the VARO Director agreed to implement measures
                    to ensure SAOs were thoroughly completed and submitted by the required
                    due dates. In September 2010, the OIG closed this recommendation.

                    Because we found no systemic problems with SAOs during our
                    April 2013 inspection, we concluded the VARO’s corrective actions in
                    response to our 2010 recommendations had been adequate.




VA Office of Inspector General                                                               9
                                                               Inspection of the VARO Newark, NJ


                    III. Eligibility Determinations

Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for       According to VBA, whenever an RVSR denies a Gulf War veteran service
Mental
                    connection for any mental disorder, the RVSR must consider whether the
Disorders
                    veteran is entitled to receive mental health treatment. However, the RVSR
                    should address entitlement to mental health care in the decision when the
                    entitlement can be granted.

                    In February 2011, VBA updated its Rating Board Automation 2000, a
                    computer application designed to assist RVSRs in preparing disability
                    ratings. The application provides a pop-up notification, known as a tip
                    master, to remind staff to consider a Gulf War veterans’ entitlement to
                    mental health care treatment when denying service connection for a mental
                    disorder. This pop-up notification does not generate if a previous decision
                    did not address entitlement to mental health services and a mental condition
                    is not part of the current claim.

                    VSC staff did not properly address whether 2 of 30 Gulf War veterans were
                    entitled to receive treatment for mental disorders. In both cases, RVSRs did
                    not address entitlement to treatment for mental disorders despite pop-up
                    notifications reminding them to do so. In these cases, mental disorder
                    diagnoses occurred within 2 years of discharge from military service.

                    Given that we found a low frequency of errors, we determined the VARO
                    was generally compliant with VBA’s policy for processing entitlement
                    decisions for mental health care. As such, we made no recommendation for
                    improvement in this area.




VA Office of Inspector General                                                               10
                                                                Inspection of the VARO Newark, NJ


                    IV. Public Contact

Outreach to         In November 2009, VA developed a 5-year plan to end homelessness among
Homeless            veterans by assisting every eligible homeless veteran willing to accept
Veterans            services. VBA generally defines “homeless” as lacking a fixed, regular, and
                    adequate nighttime residence.

                    Congress mandated that at least 1 full-time employee oversee and coordinate
                    homeless veterans programs at each of the 20 VAROs that VA determined to
                    have the largest veteran populations. VBA guidance, last updated in
                    September 2002, directed that coordinators at the remaining VAROs be
                    familiar with requirements for improving the effectiveness of VARO
                    outreach to homeless veterans. These requirements include developing and
                    regularly updating a resource directory of local homeless shelters and service
                    providers. Additionally, the coordinators should attend regular meetings
                    with homeless service providers, community government, and advocacy
                    groups to provide information on VA benefits and services.

Finding 2           Oversight of Homeless Outreach Program Needs Improvement

                    The Newark VARO has a full-time Homeless Veterans Outreach
                    Coordinator (HVOC). The VARO’s HVOC did not regularly contact and
                    provide information to homeless shelters and service providers within their
                    jurisdiction, nor was the resource directory updated. This occurred because
                    VARO management did not provide effective oversight or have mechanisms
                    in place to assess outreach efforts. As a result, VARO management had no
                    assurance that homeless shelters and service providers were aware of
                    available VA benefits and services.

                    VARO management provided us a resource directory of homeless shelters
                    and service providers located in New Jersey, excluding the seven counties
                    under the Philadelphia VARO’s jurisdiction. Staff stated, and we confirmed,
                    that the directory provided was outdated and not used to perform homeless
                    veterans outreach.

                    We confirmed the HVOC maintained a collaborative partnership with
                    homeless coordinators at the VA Medical Center; however, contact with
                    homeless shelters and service providers was limited to selected facilities.
                    Further, VARO managers were unaware that staff had not contacted the
                    majority of the homeless shelters and service providers within the VARO’s
                    jurisdiction and had not updated their homeless resource directory as
                    required. Although the HVOC provided supervisors monthly handwritten
                    calendars of outreach activities, the calendars lacked details, such as the
                    names, locations, or contact numbers of the facilities visited.

                    Had managers provided adequate oversight of the VARO’s outreach efforts,
                    they may have determined that homeless shelters and service providers

VA Office of Inspector General                                                                 11
                                                               Inspection of the VARO Newark, NJ


                    within the VARO’s jurisdiction were not being contacted or receiving
                    information on VA benefits and services available to homeless veterans.
                    Additionally, VBA needs performance measures for its Homeless Veterans
                    Outreach Program. Without such measures, we cannot fully assess the
                    effectiveness of the VARO’s outreach activities.

                    Recommendation

                    4.	 We recommend the Newark VA Regional Office Director develop and
                        implement a plan to ensure staff update the resource directory and
                        regularly contact and provide outreach to homeless shelters and service
                        providers within the VA Regional Office’s jurisdiction.

Management          The VARO Director concurred with our recommendations. The Director
Comments            requires managers to meet quarterly to assess the VARO’s outreach efforts.
                    In May 2013, staff updated the resource directory and initiated contact with
                    26 of the 95 homeless shelters under the VARO’s jurisdiction. In July 2013,
                    VARO staff initiated an annual mailing of informational materials to
                    homeless shelters to assist in outreach to homeless veterans.

OIG Response        The Director’s comments         and   actions   are   responsive    to   the
                    recommendations.




VA Office of Inspector General                                                               12
                                                               Inspection of the VARO Newark, NJ


Appendix A          VARO Profile, Scope, and Methodology of Inspection

Organization        The Newark VARO administers a variety of services and benefits, including
                    compensation and pension benefits; vocational rehabilitation and
                    employment assistance; specially adapted housing grants; benefits
                    counseling; and outreach to homeless, elderly, minority, and women
                    veterans.

Resources           As of March 2013, the Newark VARO reported a staffing level of
                    107 full-time employees. Of this total, the VSC had 82 employees assigned.

Workload            As of February 2013, the VARO reported 4,005 pending compensation
                    claims. The average time to complete claims was 252.2 days—2.2 days
                    more than the national target of 250.

Scope               VBA has 56 VAROs and 1 VSC in Cheyenne, Wyoming, that process
                    disability claims and provide a range of services to veterans. We evaluated
                    the Newark VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders.

                    Our review included 30 (17 percent) of 179 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    February 11, 2013. We provided VARO management with 149 claims
                    remaining from our universe of 179 for its review. As follow-up to our prior
                    inspection, we also sampled 40 temporary 100 percent disability evaluations
                    from the SharePoint lists VBA provided to the VARO as part of its national
                    review. We also reviewed 16 of the total 20 TBI disability claims folders
                    that VARO staff completed from October through December 2012. Four of
                    the total 20 TBI claims were unavailable for review.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VARO to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

                    We assessed the 11 mandatory SAOs the VARO completed in FY 2012 and
                    FY 2013. We examined 30 completed claims processed for Gulf War
                    veterans from October through December 2012 to determine whether VSC

VA Office of Inspector General                                                               13
                                                                 Inspection of the VARO Newark, NJ


                    staff had addressed entitlement to mental health treatment in the rating
                    decision documents as required. Further, we assessed the effectiveness of
                    the VARO’s Homeless Veterans Outreach Program by reviewing its
                    directory of homeless shelters and service providers and determining whether
                    staff regularly attended meetings and provided information on VA benefits
                    and services.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed whether the data contained obvious duplication of records,
                    alphabetic or numeric characters in incorrect fields, or illogical relationships
                    among data elements. Further, we compared veterans’ names, file numbers,
                    Social Security numbers, VARO numbers, dates of claim, and decision dates
                    as provided in the data received with information contained in the claims
                    folders we reviewed.

                    Our testing of the data disclosed that they were sufficiently reliable to meet
                    our inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders reviewed in conjunction with our
                    VARO inspection did not disclose any problems with data reliability.

                    This report references VBA’s STAR data which places the overall accuracy
                    of the VARO’s compensation rating-related decisions at 84.1 percent,
                    5.9 percentage points below VBA’s FY 2013 target of 90 percent. We did
                    not test the reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our inspection objectives.




VA Office of Inspector General                                                                   14
                                                                         Inspection of the VARO Newark, NJ


Appendix B            Inspection Summary

                      Table 2 reflects the operational activities inspected, applicable criteria, and
                      whether or not we had reasonable assurance of VARO compliance.

                            Table 2. Newark VARO Inspection Summary
        Five                                                                                 Reasonable
     Operational                                                                             Assurance of
      Activities
                                                   Criteria                                  Compliance
      Inspected                                                                              Yes     No
                                          Disability Claims Processing

    1. Temporary      Determine whether VARO staff properly reviewed temporary
       100 Percent    100 percent disability evaluations. (38 CFR 3.103(b)) (38 CFR
                                                                                                      X
       Disability     3.105(e)) (38 CFR 3.327) M21-1 MR Part IV, Subpart ii, Chapter 2,
       Evaluations    Section J) (M21-1MR Part III, Subpart iv, Chapter 3, Section C.17.e)

    2. Traumatic      Determine whether VARO staff properly processed claims for all
       Brain Injury   disabilities related to in-service TBI. (FL 08-34 and 08-36)                    X
       Claims         (Training Letter 09-01)
                                             Management Controls

    3. Systematic     Determine whether VARO staff properly performed formal
       Analysis of    analyses of their operations through completion of SAOs. (M21-4,       X
       Operations     Chapter 5)
                                           Eligibility Determinations

    4. Gulf War       Determine whether VARO staff properly processed Gulf War
       Veterans’      veterans’ claims, considering entitlement to medical treatment for
       Entitlement    mental illness. (38 USC 1702) ( M21-1MR Part IX, Subpart ii,
                                                                                             X
       to Mental      Chapter 2) (M21-1MR Part III, Subpart v, Chapter 7) (FL 08-15) (38
       Health         CFR 3.384) (38 CFR 3.2)
       Treatment

                                                 Public Contact

    5. Homeless       Determine whether VARO staff provided effective outreach
       Veterans       services. (Public Law 107-95) (VBA Letter 20-02-34) (VBA Circular
                                                                                                      X
       Outreach       27-91-4)
       Program        (FL 10-11) (M21-1, Part VII, Chapter 6) (M27-1, Part II, Chapter 2)

     Source: VA OIG
     CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                              15
                                                                       Inspection of the VARO Newark, NJ


Appendix C             VARO Director’s Comments



                  Department of                                Memorandum
                  Veterans Affairs
          Date:      August 2, 2013
          From:
                     Director, VA Regional Office Newark, New Jersey

          Subj:
                     Inspection of the VA Regional Office, Newark, New Jersey

            To:
                     Assistant Inspector General for Audits and Evaluations (52)


                  1. The Newark VARO’s comments are attached on the OIG Draft Report:
                     Inspection of the VA Regional Office, Newark, NJ.

                  2. Please refer questions to Director Michael Blazis at (973) 297-3348.



                     (original signed by:)
                     MICHAEL BLAZIS 

                     Director


                     Attachment




VA Office of Inspector General                                                                       16
                                                                 Inspection of the VARO Newark, NJ


                                    IG Inspection Response

While we generally concur with the findings and recommendations in the report, there is an area
that we feel needs to be clarified.

On page 2 of the report it is noted, “The Newark VARO did not consistently process temporary
100 percent disability evaluations and TBI cases accurately”. It should be accentuated that the
majority of the errors called were attributed to processing timeliness and not processing errors.
All but two of the cases reviewed by the OIG were already in various stages of the review
process.

In the course of the OIG team’s visit, the Newark Regional Office was in the process of
reviewing a list of 926 100% disability claims. The list was provided in late January 2013 by
Eastern Area. Due to the size of the list and current staffing levels, the review and necessary
adjustments were not completed at the time of the OIG review. We expect that the entire list
will be reviewed and all necessary action(s) taken prior to the end of the 2013 calendar year.

Recommendation 1: We recommend the Newark VA Regional Office Director develop and
implement a plan to ensure claims processing staff take timely actions to finalize reductions in
benefits.

RO Newark Response: Concur

The Newark Regional Office recognizes the need to improve the timeliness of claims involving
potential benefit reductions. To that end, all 600 end products (EPs) will be case managed by
the Non-Rating Coach along with oversight by the Assistant Veterans Service Center Manager
(AVSCM) and Veterans Service Center Manager (VSCM). The Coach will provide bi-weekly
status updates and attend meetings with the VSCM and AVSCM concerning claims requiring
reductions.

Recommendation 2: We recommend the Newark VA Regional Office Director develop and
implement a plan to review the 149 temporary 100 percent disability evaluations remaining from
our inspection universe and take appropriate action.

RO Newark Response: Concur

As noted above, the Newark Regional Office has been engaged in the review of 926 100%
disability claims since the beginning of the 2013 calendar year. The overwhelming majority of
the claims identified on the IG list of 149 temporary 100% disability evaluations were on the list
of 926. The Core Two Coach, (with oversight from the AVSCM) has been assigned the task of
finalizing the review of the 926 cases, as well as any of the 149 that were not already on the list,
by the end of the 2013 calendar year. Status updated will be provided to the VSCM monthly.

Recommendation 3: We recommend the Newark VA Regional Office Director develop and
implement a plan to ensure effective second-signature reviews of traumatic brain injury claims
decisions.

VA Office of Inspector General                                                                   17
                                                                Inspection of the VARO Newark, NJ


RO Newark Response: Concur

The Veterans Service Center Manager reiterated the existing second signature policy to all
Veterans Service Center (VSC) employees. Furthermore, management will conduct a random
sample of five completed TBI claims each month to ensure that the existing second signature
policy is being observed.

Recommendation 4: We recommend the Newark VA Regional Office Director develop and
implement a plan to ensure staff update the resource directory and regularly contact and provide
outreach to homeless shelters and service providers within the VA Regional Office’s
jurisdiction.

RO Newark Response: Concur

The Public Contact Coach and Veterans Service Representative (individual performing the
duties of the Homeless Veterans Outreach Coordinator) updated the resource directory of
homeless shelters on May 7, 2013. Furthermore, contact was made with 26 of the 95 homeless
shelters under the Newark RO’s jurisdiction. The remaining shelters will be visited within the
next 6 months. In conjunction with our in-person visits to the shelters, a contact/information
letter was composed and will be mailed, at least once a year, to all the shelters under the Newark
RO’s jurisdiction. The initial mass mailing was completed in July 2013. The AVSCM and
VSCM will meet with the Public Contact Coach quarterly to monitor our outreach efforts.




VA Office of Inspector General                                                                 18
                                                       Inspection of the VARO Newark, NJ


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Danny Clay
                                         Kelly Crawford
                                         Lee Giesbrecht
                                         Ambreen Husain
                                         Kerri Leggiero-Yglesias
                                         Suzanne Murray
                                         Lisa Van Haeren
                                         Nelvy Viguera Butler
                                         Mark Ward




VA Office of Inspector General                                                       19
                                                                Inspection of the VARO Newark, NJ


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Eastern Area Director
                    VA Regional Office Newark Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Jeffrey Chiesa, Robert Menendez
                    U.S. House of Representatives: 	Robert E. Andrews, Rodney Frelinghuysen,
                       Scott Garrett, Rush Holt, Leonard Lance, Frank LoBiondo,
                       Frank Pallone Jr., Bill Pascrell Jr., Donald M. Payne, Jon Runyan,
                       Albio Sires, Chris Smith




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                20
